rT

231} Douglas Street CA

+ E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B re fs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 19-710

CONNECTICUT FINE WINE AND SPIRITS, LLC,
dba Total Wine and More,
Petitioner,
v.
COMMISSIONER MICHELLE H. SEAGULL, et al.,
Respondents,

WINE & SPIRITS WHOLESALERS
OF CONNECTICUT, INC., et al.,
Intervenors-Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the RESPONDENTS’ BRIEF IN
OPPOSITION TO PETITION FOR WRIT OF CERTIORARI in the above entitled case complies
with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in New Century

Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains 6556 words,
excluding the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 3rd day of March, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

GERERAL NOTARY-State of Nebraska & Chl
RENEE J, GOSS ¢ decree
fy Comm. Exp. Septamber 5, 2023

Notary Public Affiant 39202
